<html>
<title> - MANAGING INTERAGENCY NUCLEAR NONPROLIFERATION EFFORTS: ARE WE EFFECTIVELY SECURING NUCLEAR MATERIALS AROUND THE WORLD?</title>
<body><pre>[Senate Hearing 112-549]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-549

                      MANAGING INTERAGENCY NUCLEAR
                    NONPROLIFERATION EFFORTS: ARE WE
        EFFECTIVELY SECURING NUCLEAR MATERIALS AROUND THE WORLD?

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 14, 2012

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                  U.S. GOVERNMENT PRINTING OFFICE

73-676 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Nicholas A. Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                Lisa M. Powell, Majority Staff Director
                       Eric M. Tamarkin, Counsel
               Rachel R. Weaver, Minority Staff Director
                Sean Kennedy, Professional Staff Member
                      Aaron H. Woolf, Chief Clerk










                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
Prepared statement:
    Senator Akaka................................................    31

                               WITNESSES
                       Wednesday, March 14, 2012

Hon. Thomas M. Countryman, Assistant Secretary for International 
  Security and Nonproliferation, U.S. Department of State........     3
Hon. Anne Harrington, Deputy Administrator for Defense Nuclear 
  Nonproliferation, National Nuclear Security Administration, 
  U.S. Department of Energy......................................     5
Hon. Kenneth Handelman, Principal Deputy Assistant Secretary for 
  Global Strategic Affairs, U.S. Department of Defense...........     7
Gene Aloise, Director, Natural Resources and Environment, U.S. 
  Government Accountability Office...............................     8
Kenneth N. Luongo, President, Partnership for Global Security....    21
Page O. Stoutland, Ph.D., Vice President, Nuclear Materials 
  Security Program, Nuclear Threat Initiative....................    23

                     Alphabetical List of Witnesses

Aloise, Gene:
    Testimony....................................................     8
    Prepared statement...........................................    58
Countryman, Hon. Thomas M.:
    Testimony....................................................     3
    Prepared statement...........................................    33
Handelman, Hon. Kenneth:
    Testimony....................................................     7
    Prepared statement...........................................    50
Harrington, Hon. Anne:
    Testimony....................................................     5
    Prepared statement...........................................    42
Luongo, Kenneth N.:
    Testimony....................................................    21
    Prepared statement...........................................    84
Stoutland, Page O.:
    Testimony....................................................    23
    Prepared statement...........................................    96

                                APPENDIX

Questions and responses for the Record from:
    Mr. Countryman...............................................   104
    Ms. Harrington...............................................   112
    Mr. Handelman................................................   119
    Mr. Luongo...................................................   124
    Mr. Stoutland................................................   128
Background.......................................................   130
Chart referenced by Ms. Harrington...............................   138

 
                      MANAGING INTERAGENCY NUCLEAR
                    NONPROLIFERATION EFFORTS: ARE WE
        EFFECTIVELY SECURING NUCLEAR MATERIALS AROUND THE WORLD?

                              ----------                              


                       WEDNESDAY, MARCH 14, 2012

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Before I call this hearing to order, I just 
want to say it is so good to have all of you here. And as 
usual, we run from one event to the other, so it is good to be 
here almost on time. But thanks for being here.
    I call this hearing of the Subcommittee on Oversight of 
Government Management, the Federal Workforce, and the District 
of Columbia to order. I want to say aloha and welcome to our 
guest witnesses, and thank you so much for taking the time to 
be here with us, and together we will work on trying to take 
care of this challenge that is facing and growing in our 
country.
    Today the Subcommittee will examine interagency efforts to 
prevent nuclear and radiological materials from falling into 
the wrong hands. Since 1999, I have chaired 10 related hearings 
on this subject and requested 10 Government Accountability 
Office (GAO) investigations, and they have been good in meeting 
those requests.
    The terrorist threat remains serious and the consequences 
of a nuclear or radiological terrorist attack would be 
catastrophic. In 2010, President Obama stated that nuclear 
terrorism is the single biggest threat to U.S. security, short-
term, medium-term, and long-term. The International Atomic 
Energy Agency (IAEA) reported more than 2,000 unauthorized 
incidents, such as illegal trade or movement of nuclear or 
radioactive material, from 1993 through 2011.
    On Sunday, we commemorated the 1-year anniversary of 
Japan's Fukushima nuclear tragedy. That incident highlighted 
the potentially dire implications of failing to adequately 
prepare for and defend against unexpected events.
    I want to commend President Obama, the agencies represented 
here today, and the many Federal employees in those agencies 
for their commitment and hard work to bolster nuclear and 
radiological security. I also want to thank GAO for its 
diligent work, which has strengthened those efforts.
    In a landmark 2009 speech in Prague, the President 
announced a new international effort to secure all vulnerable 
nuclear material within 4 years. The successful 2010 Nuclear 
Security Summit (NSS) in Washington, DC, spurred progress on 
this aggressive timetable. Since the President's speech, more 
than 31 nuclear bombs worth of material have been removed from 
countries around the world.
    Most notably, Libya's nuclear weapons program was 
dismantled before the recent uprising began, and all highly-
enriched uranium (HEU) has been removed from Chile, Romania, 
Serbia, Taiwan, and Turkey. I hope this progress will be 
accelerated when the President joins leaders of 52 other 
nations and four international organizations at the second 
Nuclear Security Summit in Seoul, Korea, in less than 2 weeks.
    The scope of the upcoming Seoul Summit has been broadened 
to include radiological material security. I have pressed for 
more focus on radiological material security for more than a 
decade, and GAO has investigated various aspects of this issue 
at my request.
    In 2007, GAO reported troubling shortfalls in the security 
of high-risk radiological materials internationally, including 
in Russia and the Ukraine. Today GAO will testify to 
preliminary findings that highlight a number of egregious 
security weaknesses at domestic hospital and medical facilities 
where radiological materials are used and stored. These 
disturbing findings demonstrate the need to strengthen the 
security requirements for domestic radiological sources.
    There is a model that could be used to enhance domestic 
radiological security nationwide. The Department of Energy's 
(DOEs) National Nuclear Security Administration (NNSA) has 
worked with partners in my home State of Hawaii to complete 
security enhancements on all high priority radiological 
materials within the State. Hawaii is now safer, and I urge the 
Department to accelerate the implementation of this important 
program and to better coordinate with the Nuclear Regulatory 
Commission (NRC) to secure all high-risk sites across the 
country. The United States should serve as a model worldwide on 
domestic radiological security. The upcoming summit in Seoul 
provides an opportunity to focus the world's attention on this 
issue.
    The Administration's bold commitment to secure all nuclear 
material worldwide could be paired with a new international 
initiative to secure all high-risk radiological materials in 4 
years. When the United States leads by example, we can make 
great strides to improve international safety and security.
    In addition to radiological sources, I remain concerned 
that Federal agencies face challenges defining and implementing 
a strategic plan for nuclear security. Agencies must prioritize 
the highest-risk materials, ensure that nuclear and 
radiological materials the United States supplies to allies do 
not become a threat, and coordinate with the IAEA. So I look 
forward to these discussions that we will be having in today's 
hearing. I also hope the Administration witnesses identify how 
Congress can best support their efforts--through adequate 
funding, ratification of relevant treaties, legislation, or 
otherwise.
    The security of nuclear and radiological materials has been 
a priority during my tenure in the U.S. Senate, and I will 
continue focusing on this issue during my last year.
    This is a bipartisan issue that I hope all of my colleagues 
will actively pursue in the future. This is not and should not 
be a political issue. It is about safeguarding human life, the 
environment, and the economy. The stakes are too high for 
partisanship or for Congress and the American people to ignore 
it. And I look forward to continuing to work with you on these 
issues. And so I want to welcome our witnesses for the first 
panel:
    The Hon. Thomas M. Countryman, Assistant Secretary for 
International Security and Nonproliferation (ISN) at the U.S. 
Department of State;
    The Hon. Anne Harrington, Deputy Administrator for Defense 
Nuclear Nonproliferation at the U.S. Department of Energy's 
National Nuclear Security Administration;
    The Hon. Kenneth B. Handelman, Principal Deputy Assistant 
Secretary for Global Strategic Affairs at the U.S. Department 
of Defense (DOD);
    And Mr. Gene Aloise, Director, Natural Resources and 
Environment, at the U.S. Government Accountability Office. Mr. 
Aloise, it is good to see you testify before this Subcommittee 
again.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses, and I would ask you to please stand and raise 
your right hand and take this oath with me. Do you swear that 
the testimony you are about to give before this Subcommittee is 
the truth, the whole truth, and nothing but the truth, so help 
you, God?
    Mr. Countryman. I do.
    Ms. Harrington. I do.
    Mr. Handelman. I do.
    Mr. Aloise. I do.
    Senator Akaka. Thank you very much. Let it be noted for the 
record that the witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statements will be made part of the record, and I would also 
like to remind you to please limit your oral remarks to 5 
minutes.
    Assistant Secretary Countryman, will you please proceed 
with your statement?

TESTIMONY OF HON. THOMAS M. COUNTRYMAN,\1\ ASSISTANT SECRETARY 
     FOR INTERNATIONAL SECURITY AND NONPROLIFERATION, U.S. 
                      DEPARTMENT OF STATE

    Mr. Countryman. Chairman Akaka, thank you for inviting us 
here to discuss United States efforts to secure vulnerable 
nuclear materials around the globe. This mission is vital to 
the national security of the United States. Congressional 
support remains critical, and we deeply appreciate your 
personal engagement in the issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Countryman appears in the 
appendix on page 33.
---------------------------------------------------------------------------
    In his Prague speech, President Obama laid out his vision 
for a world without nuclear weapons and free from the threat of 
nuclear terrorism. A year later, at the Nuclear Security Summit 
in Washington, participants emphasized the need for each State 
to take responsibility for the security of nuclear materials 
under its control, and each State made specific commitments to 
advance nuclear security.
    Now, to follow through, the United States has a three-
tiered strategy to lock down or remove vulnerable nuclear 
materials: First, at the site level; second, at the country 
level; and, third, at the global level.
    At the site level, we work with other countries to minimize 
the civilian use of highly enriched uranium, to eliminate 
unneeded weapons-usable material, and to improve security at 
specific sites. Where site-level assistance is not appropriate, 
we cooperate at the country level with foreign governments to 
exchange best practices and to demonstrate the safe use of 
equipment. At the global level, we develop global initiatives 
through the Nuclear Security Summit process, the United Nations 
(UN), and other fora to improve nuclear security around the 
world.
    As we do this important work to keep Americans safe, we use 
tax dollars wisely. Through the Global Partnership (GP) against 
the Spread of Weapons of Mass Destruction and through the 
United Nations 1540 Committee, we encourage international 
partners to share the costs of improving security. Building 
this safer world and protecting the American people also 
requires that the International Atomic Energy Agency has the 
resources and authority to carry out its vital mission as the 
global focal point for nuclear cooperation. We are confident 
that every effort is made to advance our shared interests in 
peaceful nuclear uses and security.
    With this three-tiered strategy, we have made significant 
progress in the 4-year effort to secure vulnerable nuclear 
materials. Still, the persistence of illicit trafficking, as 
you referred to, of weapons-usable nuclear materials 
demonstrates that efforts to consolidate materials and secure 
facilities are not enough. My bureau, ISN at the State 
Department, has several programs to promote this international 
capacity to detect and investigate cases of nuclear material 
outside proper control.
    First, the Nuclear Smuggling Outreach Initiative (NSOI) is 
a State Department-led interagency effort to develop 
partnerships with key countries to combat nuclear smuggling.
    Second, our Preventing Nuclear Smuggling Program (PNSP) 
works to leverage international funding to promote law 
enforcement cooperation and nuclear forensics cooperation.
    Third, our bureau's Export Control and Border Security 
(EXBS) Program leads interagency efforts to build comprehensive 
export and border control systems in more than 50 partner 
countries.
    And, fourth, we lead the United States engagement with the 
Global Initiative to Combat Nuclear Terrorism (GICNT), a 
partnership of 82 nations that conduct activities to strengthen 
plans, policies, and interoperability on the issue of nuclear 
terrorism.
    In terms of congressional support for the fight against 
proliferation of weapons of mass destruction (WMD), in addition 
to providing us the resources we need to do this important 
national security job and to keep Americans safe, we also need 
your help to fill critical gaps in the international legal 
framework of nuclear security. In 2008, the Senate provided 
advice and consent unanimously to ratification of four nuclear 
security-related treaties, including the Nuclear Terrorism 
Convention. I strongly urge Congress to expeditiously enact the 
implementing legislation for these treaties in the national 
security interests of the American people.
    Finally, let me stress that reducing the risk of nuclear 
terrorism is a complicated task, but the interagency is working 
well to meet this challenge. My colleagues not only from Energy 
and Defense but also Justice, Homeland Security, and others, 
work together well. With your support we will continue to do 
all we can to protect the American people. Thank you, sir.
    Senator Akaka. Thank you very much, Mr. Countryman.
    And now let me call on the Hon. Anne Harrington, Deputy 
Administrator from the Department of Energy. Please proceed 
with your statement.

TESTIMONY OF HON. ANNE HARRINGTON,\1\ DEPUTY ADMINISTRATOR FOR 
  DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
           ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Ms. Harrington. Thank you very much, Mr. Chairman. Thank 
you for this opportunity to brief the Subcommittee on the 
Department of Energy's National Nuclear Security 
Administration's contribution to the international effort to 
secure the world's most vulnerable nuclear material. 
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Harrington appears in the 
appendix on page 42.
---------------------------------------------------------------------------
    Before I continue, I would like to thank you, Mr. Chairman, 
for your leadership in drawing attention to the issue of 
nuclear and radiological security. As you have already noted, 
the State of Hawaii serves as a model for the rest of the 
country for how to implement a comprehensive radiological 
security program. It has been a pleasure for my staff and 
experts to work with the committed State, city, and local 
officials who have supported this work, and we look forward to 
continuing our partnership.
    The President's 4-year effort is indeed unprecedented. It 
is led by the United States but with significant contributions 
from dozens of countries around the world. The White House, in 
close coordination with our interagency and international 
colleagues, is leading and implementing an impressive three-
tiered strategy which Assistant Secretary Countryman just 
described. I am pleased to report that NNSA has made 
significant contributions to the U.S. Government's efforts in 
each of these three strategic areas.
    Most of our important contributions to the 4-year effort 
have taken place at the site level. These include securing, 
removing, and disposing of high-priority nuclear materials 
worldwide; converting highly enriched uranium-fueled research 
reactors to low enriched uranium (LEU); assessing the physical 
security of U.S.-obligated material and providing security 
upgrades at nuclear sites; consolidating materials to fewer, 
more secure sites; improving international capabilities to 
detect and interdict illicit nuclear and radiological materials 
trafficking; and promoting a culture of awareness, 
responsibility, and security in the countries and sites in 
which we work.
    We have made important contributions also to the national-
level efforts, including working with partner countries on 
their nuclear security Centers of Excellence. These centers 
form an important network that will allow countries and regions 
to strengthen capabilities to secure facilities and to deter, 
detect, and interdict illicit trafficking of nuclear and 
radiological material.
    On the global level, NNSA has always been a strong 
supporter of the International Atomic Energy Agency as an 
important means of advancing our nuclear security objectives. 
NNSA led the 5-year international effort to develop and 
finalize the fifth revision of the IAEA's nuclear security 
recommendations on physical protection of nuclear material and 
nuclear security.
    We also partner closely with the IAEA on training and 
education activities. We provide subject matter experts to 
assist the IAEA's Office of Nuclear Security (ONS), and 
contribute to the development of the documents in IAEA's 
Nuclear Security Series.
    Our interagency cooperation is also strong and very 
institutionalized. We participate actively in the National 
Security staff-led interagency policy committees and 
subcommittee meetings.
    We also have strong coordination mechanisms on an agency-
to-agency basis. For example, NNSA holds quarterly coordination 
meetings with our colleagues at the Department of Defense at 
the Assistant Secretary level to discuss areas of common 
interest, coordinate on program ideas, and do forward planning.
    Similarly, we have a trilateral coordination group on 
radiological security that includes senior-level 
representatives from NNSA, the NRC, Department of Homeland 
Security, and the FBI, also meeting on a quarterly basis to 
review activities.
    We share your excitement about the 2012 Nuclear Security 
Summit. We fully expect that the leaders who participate there 
will renew their commitments to ensure that nuclear and 
radiological materials under their control are not stolen or 
acquired by terrorists. This means renewing their respective 
pledges to continue to evaluate the threat and improve the 
security as changing situations may require, and to exchange 
best practices and practical solutions for doing so. We would 
be happy to brief you after the summit has concluded on the 
achievements and pledges announced there.
    For our part, NNSA will complete a number of activities 
under the 4-year effort by the end of 2013, but our mission to 
secure nuclear material will extend well beyond then.
    I apologize if I have run over my time, but I want to thank 
you again for the opportunity to brief you on DOE-NNSA's 
contribution to this international effort, and I look forward 
to your questions. Thank you.
    Senator Akaka. Thank you very much for your testimony.
    And now I would like to call on Principal Deputy Assistant 
Secretary Handelman. Please proceed with your testimony.

   TESTIMONY OF HON. KENNETH HANDELMAN,\1\ PRINCIPAL DEPUTY 
    ASSISTANT SECRETARY FOR GLOBAL STRATEGIC AFFAIRS, U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Handelman. Thank you, Mr. Chairman. It is an honor to 
appear today with two close colleagues to my right and a 
distinguished public servant to my left to discuss the 
Department of Defense's contributions to U.S. Government's 
nuclear security campaign. My colleagues have given the 
Subcommittee a good overview of the administration's strategy 
and diplomatic efforts related to the 4-year lockdown 
specifically and nuclear security in general. I would like to 
focus my remarks on DOD's contribution to what is truly a 
governmentwide team effort, as well as offer a few observations 
about the evolution of nuclear security as a military mission.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Handelman appears in the appendix 
on page 50.
---------------------------------------------------------------------------
    DOD's contribution to the nuclear security effort being 
discussed at this hearing comes primarily through the Nunn- 
Lugar Cooperative Threat Reduction Program (CTR). In my 
statement for the record, I have provided details on CTR's 
activities in the former Soviet States, as well as plans to 
expand CTR's nuclear security work to other parts of the world 
in coordination with the Departments of Energy and State.
    CTR has a long history, and your colleagues Senators Lugar 
and Nunn continue to play true leadership roles in the 
program's activities. I would be remiss if I did not thank you 
and your House colleagues for the ongoing strong congressional 
support for the CTR program and, indeed, for all of our 
programs, writ large, on nuclear security.
    For fiscal year 2013, the President has requested $519 
million for CTR, roughly $130 million of which would be devoted 
towards nuclear security-related activities. And I urge 
congressional support for this request and the entire range of 
nuclear security-related programs.
    Mr. Chairman, let me turn to the big-picture view of DOD's 
nuclear security mission. Nearly everything this panel will 
discuss with you today deals with the thorny problem of how to 
prevent the bad guys from getting their hands on really bad 
things. As I have said, DOD's principal contribution in this 
regard is through the CTR program. However, given DOD's overall 
mission to defend the Nation, there is a whole world of 
separate nuclear security activities for which my agency plans, 
equips, and trains. These activities center on a scenario none 
of us want to confront, namely, what to do when we think the 
bad guys actually have their hands on really bad things.
    Our planning for this type of loose-nuke situation is 
evolving substantially, and I think it is an important backdrop 
to the Subcommittee's discussions today. And I want to 
emphasize that the watch word for our new thinking for this 
type of loose-nuke scenario centers on integration--integration 
across DOD's many components and integration across our 
government.
    For instance, the instability or collapse of a nuclear-
armed State could quickly lead to the proliferation of nuclear 
weapons or materials well beyond the country of origin and 
involve multiple State and non-state actors as it moves across 
the globe. The U.S. military seeks to improve our defensive 
posture against this type of threat, a process which will bear 
fruit regardless of how a terrorist obtains nuclear material. 
This includes enhancing the protective posture of the homeland; 
working with the intelligence community to better analyze and 
track terrorist networks and identify likely paths to 
proliferation; and improving our ability to characterize the 
source and nature of a loose-nuke threat. We can be certain 
that in a nuclear or other type of WMD crisis, all of these 
activities would be occurring simultaneously. Our work at DOD 
has focused on how U.S. military units would coordinate with 
other U.S. agencies and with allies and partners in the face of 
such a loose-nuke threat scenario.
    Of course, as with most DOD missions, we hope we never need 
to execute this one. The key is to have a layered defense 
against the loose-nuke threat. The first layer or the first 
line of defense is the group of activities that Secretaries 
Countryman, Harrington, and I are here to discuss with you 
today.
    Mr. Chairman, the nuclear security mission area has enjoyed 
the broad bipartisan support that it deserves, as you observed 
in your opening remarks. We all thank Congress for that 
confidence and look forward to your questions today.
    Senator Akaka. Thank you very much, Mr. Handelman.
    And now I would like to call on Mr. Aloise. Would you 
please proceed with your statement?

 TESTIMONY OF GENE ALOISE,\1\ DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Thank you, Mr. Chairman. I am pleased to be 
here today to discuss our work that directly relates to the 
goals of the upcoming Nuclear Security Summit. Specifically, my 
testimony will focus on two of our recently issued reports. The 
first is on the strategy for supporting the President's goal of 
securing all vulnerable nuclear materials worldwide within 4 
years. The second is on U.S. agencies' ability to track and 
evaluate the security of U.S. nuclear material transferred to 
foreign countries. And I will also discuss our ongoing work on 
Federal efforts to secure radiological sources in U.S. 
hospitals and medical facilities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Aloise appears in the appendix on 
page 58.
---------------------------------------------------------------------------
    Regarding the President's 4-year initiative, a little more 
than a year ago we reported that the strategy approved by the 
National Security Council (NSC) for the initiative was vague 
and lacked details regarding how the initiative would be 
implemented. Specifically, the administration's strategy did 
not identify vulnerable nuclear material sites, which agencies 
and programs would be responsible for each site, and the 
potential challenges in securing nuclear material around the 
world. The strategy also lacked details on cost and time frames 
to accomplish this difficult but worthwhile work.
    We recommended that NSC lead and coordinate a plan for 
implementing the initiative with details in several areas, 
including identifying those countries where nuclear materials 
are thought to be poorly secured.
    In September of last year, we reported on an issue that 
could impact the 4-year goal of securing nuclear materials. We 
reported that United States efforts to secure nuclear materials 
worldwide would be difficult because U.S. agencies do not 
systematically track the location of nuclear material that the 
United States has transferred to other countries under nuclear 
cooperation agreements.
    Specifically, DOE and NRC do not have a comprehensive 
current inventory of U.S. nuclear material, including weapon-
usable material, located overseas. In 1993, NRC and other 
agencies, at the direction of Congress, tried to develop an 
inventory, but were only able to verify the location of 1,160 
kilograms out of 17,500 kilograms of HEU remaining overseas, 
and no estimates have been developed since.
    In addition, even though partner countries are required to 
guarantee the physical protection of U.S. nuclear material, 
U.S. agencies do not have access rights allowing them to 
systematically assess the security of this material. U.S. 
interagency teams found that countries they could visit only 
met security guidelines set by the IAEA about half the time. We 
made several recommendations to improve oversight and 
accountability, including recommending the development of an 
inventory of U.S. nuclear material overseas.
    Now, as you mentioned, Mr. Chairman, in addition to nuclear 
materials, this year's summit plans to address the security of 
radiological sources. The nuclear material in these 
radiological sources could be used to make a dirty bomb. 
Therefore, it is essential that devices containing radiological 
sources be secured from theft or sabotage.
    Based on preliminary results from our ongoing work that we 
are doing at your request, Mr. Chairman, we found that NRC's 
security controls for hospitals and medical facilities may not 
go far enough to protect these highly radioactive materials. As 
a result, we are finding that hospitals and other medical 
facilities are implementing the security controls in a variety 
of ways, some better than others, leaving some facilities more 
vulnerable to theft or sabotage than others.
    According to NNSA, there are about 1,500 hospitals and 
medical buildings in the United States that contain high-risk 
radiological sources, with a cumulative total of about 22 
million curies of radioactive material. DOE's Domestic Material 
Protection Program provides hospitals with security upgrades to 
the devices that contain high-activity radiological sources, 
such as gamma knives and blood irradiators. It also provides 
training for hospital personnel and local law enforcement on 
how to protect themselves and their communities when responding 
to an incident involving highly radioactive materials.
    Mr. Chairman, during the course of our work, my team and I 
have visited numerous medical facilities and observed instances 
where equipment containing extremely high curie amounts of some 
of the most dangerous radiological material were highly 
vulnerable to theft or sabotage. For example, in one hospital 
we visited, the door to the room housing a blood irradiator 
with 1,500 curies of Cesium-137 had a combination lock on the 
door, but the combination to the lock was written in pencil on 
the door frame for everyone to see.
    We also saw equipment containing high-risk sources that 
should have been secured, but instead were on pallets with 
wheels and close to areas of public access. In our view, it 
would not be very hard for someone to steal these devices. My 
full statement contains other examples from our visits.
    NNSA is doing a commendable job in securing these high-risk 
radiological sources, but some facilities considered high risk 
by law enforcement officials have declined NNSA's assistance, 
which is voluntary, including hospitals in cities thought to be 
attractive terrorist targets. We are continuing to perform our 
work in this area of high national security importance and plan 
to issue our full report later this year.
    Thanks, Mr. Chairman I would be happy to answer any 
questions you may have.
    Senator Akaka. Thank you very much, Director Aloise.
    Mr. Countryman, the summit process has done an excellent 
job of focusing the international community's attention on the 
problem of nuclear material security. What do you hope to 
achieve at the upcoming Nuclear Security Summit in Seoul?
    Mr. Countryman. Thank you, Mr. Chairman. I would like to 
speak only in the most general terms about the summit meeting 
in Seoul because we anticipate that President Obama and other 
international partners will make a number of announcements, and 
I would not want to preview those and take away the opportunity 
to do that. But since the purpose of the summit is to review 
and build upon the commitments that we made collectively and 
that nations made individually at the Washington Summit 2 years 
ago, I think there will be both a significant record of 
accomplishments to list as well as renewed and updated and 
improved commitments by participants. And in the particular 
structure of the summit where the presidents and prime 
ministers have an opportunity to discuss things in a less 
formal structure than many other summit meetings, I think they 
will have a very frank conversation about the remaining 
challenges that we have around the world.
    I hope that you can accept this very general 
characterization of our expectations.
    Senator Akaka. Yes, well, thank you very much.
    Let me further ask you, after the 2014 summit in the 
Netherlands is completed, what is the future of the summit 
process? And how do we continue the international emphasis on 
preventing nuclear terrorism?
    Mr. Countryman. Thank you, sir. The summit is a unique 
process in that having this very dramatic development, the 
largest gathering of presidents and prime ministers ever to 
come to Washington for the 2010 Nuclear Security Summit, was 
intended explicitly to have that dramatic effect of focusing 
both public attention and governments' attention on commitments 
that they could make to improve nuclear security in each 
country and globally. And it had that effect. I think that a 
number of countries responded to the uniqueness of the summit 
by making those commitments and by following them up over the 
last 2 years.
    It was never the intent to create a new international 
organization or a permanent process, but as to whether there 
would be still another summit after 2014, I would prefer not to 
speculate on that, but to let the leaders discuss it in Seoul.
    Senator Akaka. Well, it has grown over the years, and now 
as you point out, there are 50-plus partners in this, and it is 
certainly getting some attention.
    My next question is to the witnesses from State, DOE, and 
DOD. Despite considerable progress, it seems likely that at the 
end of the Administration's 4-year effort, all of the 
vulnerable nuclear material worldwide will not be secured. 
Please discuss whether you anticipate there will be countries 
and facilities that you likely will not be able to address 
during the 4 years, the reasons why, and what contingency plans 
are in place to revise or extend this particular initiative. 
Mr. Countryman.
    Mr. Countryman. Again, we have always understood the 4-year 
effort to be a focused international effort, not a uniquely 
U.S. effort. It requires the commitments not just of our 
government, all of our agencies working together, and an 
important expenditure of resources, but a similar effort and a 
similar commitment on the part of our partners around the 
world.
    We believe that the progress report that will be discussed 
in Seoul 2 weeks from now will show significant progress, and 
we believe that it will refocus us on the most important areas 
that we still have to address, some of the places where the 
physical or the political challenge may have been greater.
    We have always assumed that there will be continuing work 
to do after the 4-year time frame. As long as nuclear materials 
exist, we will have the same need to set the best possible 
example in the United States of securing those materials and of 
sharing that capability for protection without other countries, 
motivating them to do the same.
    I would not want to predict now which particular spot in 
the world will turn out to be the most difficult place to 
secure nuclear materials.
    Senator Akaka. Thank you very much. Ms. Harrington.
    Ms. Harrington. I would agree with Assistant Secretary 
Countryman. The 4-year effort was aimed at securing a 
prioritized list of materials that was considered to be the 
most vulnerable. It does not imply that it captures everything. 
We know that the job will continue following 2013, that there 
will be more to do.
    We also are looking forward into a global nuclear economy 
which, despite the incidents at Fukushima, will continue to 
expand in terms of use of nuclear power and uranium commerce.
    So those things are all on our minds as we consider next 
steps, and as Mr. Countryman said, these are things that will 
be considered by the leaders when they convene in Seoul, and I 
think we all sit here fully expecting that we will get new 
direction and a new sense of energy out of that Summit.
    Senator Akaka. Thank you. Mr. Handelman.
    Mr. Handelman. Mr. Chairman, the three of us have a 
colleague, a very senior colleague, on the national security 
staff who describes the 4-year lockdown effort as ``a sprint 
within a marathon.'' I am a career civil servant. I have been 
doing this for a number of years. The United States attention 
to nuclear security did not start with the 4-year lockdown. It 
is not going to end at the end of 4 years. What I think is 
particularly significant about this sort of frame of reference 
that the President has set up is that he has devoted his 
personal attention and a lot of time to this effort. That is 
pretty unique between the Prague speech and two summits--or 
three summits, which would occur--I am not going to presume the 
results of the election. That is pretty unprecedented in terms 
of a world leader's personal attention to this issue.
    So as my colleagues have said, wherever we are at the end 
of 4 years, it will be a substantial accomplishment, but our 
jobs will not have ended in this regard.
    Senator Akaka. Thank you very much.
    Mr. Countryman, I know you are going to have to leave, but 
let me ask you a question. Your testimony notes the importance 
of implementing legislation for four key treaties that are 
important United States commitments to enhance the tools to 
fight international terrorism and WMD proliferation. In 2008, 
the Senate unanimously provided its advice and consent to 
ratification of all four treaties. However, the implementing 
legislation needed to formally ratify these treaties is still, 
I think, languishing here.
    What are the road blocks to congressional approval of this 
implementing legislation?
    Mr. Countryman. Thank you, Senator. I am certain you do not 
want me to do an analysis of the congressional process. All I 
can say is that the Bush Administration first submitted a draft 
of the implementing legislation. The Obama Administration has 
submitted essentially the same text. We know that there is 
support not just from our predecessors in a previous 
administration who have made clear that this should move 
forward. We know there is support of both parties in both 
Houses. And I also know that these are somewhat complex legal 
issues when you need to amend the U.S. Code to provide for a 
new category of criminal offense, as these treaties would 
oblige us to do.
    I do not have any advice for you today, sir, on how to 
overcome that. I would only want to emphasize that we ask for 
rapid action on these in the interests of the national security 
of the United States. We believe it gives our law enforcement 
community new, significant avenues by which to investigate and 
prevent the risk of nuclear terrorism in the United States, and 
that matters to our national security. It has the added 
advantage of providing the kind of example to the rest of the 
world in terms of completing ratification that we always seek 
to provide and that the United States has traditionally been a 
leader in.
    So there are many good reasons to do it. I do not assume 
that the obstacles are huge, but I cannot give you an analysis 
of what is happening outside the drafting process.
    Senator Akaka. Thank you very much for your response.
    The next question is to any of the Executive Branch 
witnesses. This is to whoever has this type of responsibility. 
Nuclear materials in the hands of rogue or unstable nations are 
a particular threat. The consequences could have been dire if 
we had not dismantled the Libyan nuclear weapons program before 
the chaos leading up to the revolution began there.
    I would like to give you an opportunity to discuss the 
Libya initiative as well as its broader implications.
    Mr. Handelman. Mr. Chairman, the Libya case is really an 
important example, and it is certainly one where it is an 
illustration of a successful coming together of like-minded 
allies to work with a partner country that was in the frame of 
mind to make some changes.
    I think certainly where my Department is in terms of the 
implications of another Libya or indeed if a nuclear possessor 
State does not give up its nuclear materials in an orderly 
manner, our attitude is we are never really going to be able to 
predict with certainty how materials, be they weapons or 
radiological materials, might wind up in the hands of 
terrorists or somehow not be in positive custody of a competent 
authority. So very briefly, let me describe sort of a framework 
that we are using for planning, along with our interagency 
partners.
    The proposition is that intelligence or information is 
always going to be incomplete on a loose nuke. We will be 
extremely lucky if we get a hold of information or intelligence 
that pinpoints a warhead or material and, we are able to do 
perhaps what our military forces do best or our diplomats do 
best. We are not planning for that. That is too good a 
scenario.
    So the notion is that there is going to be a zone, 
indeterminate, that we would refer to as the ``source zone.'' 
It is coming from someplace, and you can pinpoint perhaps a 
region of the world. Then there is a transit zone. It is 
obvious what that would be, the different routes that 
terrorists or others might take to transport material. And then 
there is a target zone, and it seems that the United States is 
always somebody's target. There might be others as well.
    So from a military planning perspective, the issue is: What 
does a commander, one of our regional commanders, need to think 
about if he happens to be responsible for U.S. military forces 
in the source zone, the transit zone, or the target zone? And 
there are lists of activities that--some are common for each of 
those three zones, and some are very different. All of them 
involve different partnerships with other U.S. agencies.
    What we realized is that because of the likelihood that we 
will have incomplete intelligence, these lists of activities 
that we will have to be doing in each of these zones is 
probably going to be happening simultaneously.
    So I guess our perspective on the Libya situation is that 
was a success and we should continue to be working with other 
governments to achieve continued success. But as is typical for 
DOD's mission, we are sort of planning for a worse kind of 
situation and how we would work with our interagency partners 
to deal with it.
    Ms. Harrington. If I could add to what Mr. Handelman just 
said, Libya, of course, was one of the six countries cleaned 
out of HEU since the Prague speech, and it was not a simple 
affair. It took a great deal of concerted effort, 
diplomatically led by the State Department, but also with 
pressure from Russia, the involvement of the IAEA, when Colonel 
Gaddafi decided he would hesitate a little bit before giving up 
his final material. And it was only because we all worked 
together both across agencies and across nations that we were 
able to accomplish this task.
    I think in terms of an object lesson, we need to take our 
opportunities when we find them and be able to have the 
flexibility and the nimbleness, which is not necessarily 
something the U.S. Government is always known for, to be able 
to react quickly and move into a situation, remove material, 
stabilize a situation, and accomplish our security tasks.
    We sometimes have challenges in that regard. Sometimes 
there are legislative requirements for concurrence from the 
State Department or coordination elsewhere. We are working on 
these issues right now across the agencies. I do not think it 
requires any help from Congress. It requires a bit of 
creativity on our side. But we are looking ahead at exactly 
that kind of situation where all of us will have to come 
together, work quickly, and be highly effective.
    Senator Akaka. Thank you very much, Ms. Harrington. My next 
question is for all of you. Ken Luongo, who is President of the 
Partnership for Global Security, has raised concerns that this 
budget is inadequate to meet the nuclear threat to American and 
international security and could undermine the 4-year nuclear 
security agenda. Others likely will argue that we cannot fully 
fund the President's request.
    Please respond to Mr. Luongo's view that more funding is 
needed and address what effect less funding would have on our 
ability to effectively secure vulnerable nuclear and 
radiological materials. Ms. Harrington.
    Ms. Harrington. I notice that Mr. Handelman is letting me 
take this question first. Thank you.
    If you look at budget projections that were presented 
several years ago for where we would be in the 2013-14 space, 
they are quite different from where we are right now. But that 
is very much a reflection of fiscal realities in the United 
States. The Budget Control Act governs what our limits are 
going to be. The Budget Committees are very constrained 
overall. And so across the government, every agency, every 
program is looking at how it can continue to meet mission 
goals, but with less resources.
    We are no exception, and we are confident that the 2013 
budget as presented will allow us to continue to meet our 4-
year goals. That does not mean that it is only the Global 
Threat Reduction Initiative (GTRI) program, but we have to 
maintain the funding in other programs that are also part of 
this overall effort. There are at least four different program 
areas that support the 4-year effort in my office.
    So we have done our best to balance across those programs, 
to make some tough decisions, but we believe they were the 
right decisions to be able to carry this effort forward. Thank 
you.
    Senator Akaka. Thank you. Mr. Handelman.
    Mr. Handelman. Yes, Mr. Chairman, Secretary Harrington I 
think used the word ``balance'' three times in her answer, and 
I think that is the key point. The Federal deficit is a 
national security issue. All of us have multiple 
responsibilities, and we just have to balance one against the 
other when it comes time to building a budget.
    I will note that the program that I described where DOD 
makes its primary contribution to the U.S. Government's overall 
nuclear security effort, the Nunn-Lugar CTR program, over the 
past 3 years has seen between a 20- and a 25-percent increase 
in the budget that we have requested, and Congress has 
supported it. So for our part of the contribution, I think we 
are appropriately funded right now.
    Senator Akaka. Thank you very much for that.
    Mr. Aloise, as you know, the upcoming summit in Seoul will 
focus in part on radiological security. I was alarmed by your 
testimony about unsecured radiological materials in hospitals 
and medical facilities. A terrorist determined to build a dirty 
bomb seems unlikely to go through the trouble of smuggling 
radiological material into the United States if they can get it 
here.
    What can the Administration and the Congress do to address 
this problem?
    Mr. Aloise. Well, you are correct, Mr. Chairman. There is 
plenty of the material here. It does not have to be smuggled 
into the United States.
    We looked at NRC's increased controls governing the 
security of radiological sources at hospitals and medical 
facilities over radiological materials, and basically I think 
we are coming to the conclusion that they are too broadly 
written and need to be tightened. A lot of the personnel we 
visited in these hospitals and medical facilities needed more 
guidance on how to better secure these radiological sources. 
They also needed better training regarding the security of 
radiological sources. They are trained in the health services.
    NNSA has a commendable program to lock down these sources. 
I think it needs and deserves continued congressional support.
    Senator Akaka. I was surprised to learn and was, of course, 
concerned about the problem. Is it that we need to set up 
programs that can help them learn how to take care of these 
materials?
    Mr. Aloise. Right.
    Senator Akaka. And that was the point I thought that was 
interesting, that many of them do not know how to handle it.
    Mr. Aloise. That is correct, yes.
    Senator Akaka. And so my question was, what can we do to 
help this situation across the country?
    Mr. Aloise. Well, again, if NRC could tighten up their 
increased controls, provide more training to health physicists 
and health providers who are working in this area and, frankly, 
expand NNSA's efforts to lock down these sources would be the 
most effective thing we could do right now, because medical 
equipment in these facilities is essential for providing health 
care. Providing this health care is the primary function of 
hospital personnel. They are not thinking security as their 
first priority. So we need a culture change that recognizes the 
importance of these facilities and this equipment, but also 
recognizes that the equipment has to be secured. Ultimately the 
licensee who holds these radiological sources is responsible 
for ensuring their security.
    Senator Akaka. Thank you.
    Ms. Harrington, do you agree with GAO's assessment that 
U.S. medical facilities with radiological sources are 
vulnerable to theft or sabotage?
    Ms. Harrington. We know through our program experience and 
what we have seen along with GAO in various of these facilities 
that there is substantial room for improvement. Having 
discussions like this, you bringing attention to this issue, I 
think is extremely helpful. Just as we work on developing 
security cultures in other countries, we need to work on the 
same kind of security culture in our country, particularly on 
this radiological issue. So I agree that there is certainly 
more that we can do.
    Senator Akaka. Are you aware of any actual incidents of 
potential theft or sabotage of radiological sources in U.S. 
medical facilities in the last several years?
    Ms. Harrington. There are some examples, but they would not 
be something I could discuss here.
    Senator Akaka. Fine. Thank you.
    Ms. Harrington, GAO cites two impediments to your ability 
to secure all domestic radiological sources: Your programs are 
voluntary, and the costs to maintain security upgrades may be 
too burdensome for some hospitals and medical facilities.
    Do you agree with that assessment? And what steps can be 
taken to advance your work to secure radiological sources?
    Ms. Harrington. Mr. Chairman, I think there are a number of 
things that can be done. Again, having a broader conversation 
on the need to pay attention to security, introducing training, 
as Mr. Aloise said, for people in the health profession, 
including that as part of their education, that this needs to 
be an issue that is integrated into how they perform their 
daily work.
    Because we do not have a national requirement, as Mr. 
Aloise said, the NRC regulations are what they are, so we offer 
this as a voluntary program. We actually have excellent 
cooperation with the NRC, which often will reach out to 
facilities and recommend that they work with us. So it is not 
that the NRC is not trying to help. They really are trying to 
do, I think, a good job in promoting this kind of work.
    Similarly, as we look forward, if we have this broader 
discussion and get hospitals and medical facilities and clinics 
and so forth to think about security as they are designing 
their programs, then it becomes something that is simply part 
of the conversation and probably less expensive than putting 
security on top of a facility that already exists.
    So I think, again, broadening the conversation and engaging 
in more community-based discussions is very good.
    Senator Akaka. Thank you.
    Let me ask GAO, Mr. Aloise, whether you have any comments 
on the questions I just asked of Ms. Harrington.
    Mr. Aloise. I would just add that many of the security 
vulnerabilities we observed on our visits were in facilities 
that were under NRC's increased controls. Many of the law 
enforcement officials we talked to said that the NRC's 
increased controls were better than nothing, but that would not 
stop someone who wanted to get their hands on those sources. 
That is why NNSA's program is so important, because the 
upgrades we witnessed that NNSA put in were very impressive.
    Senator Akaka. Thank you very much for those responses.
    I would like to ask the next question to DOE and DOD. In 
2010, GAO raised concerns that although your agencies had 
individual strategic plans, there was no overarching 
interagency strategy to meet the 4-year goal. GAO recommended 
that the National Security Council lead the development of a 
strategic plan that includes details about vulnerable foreign 
nuclear sites, planned activities at each location, agency 
responsibilities, potential challenges and strategies for 
overcoming them, and cost and timeline estimates.
    What is the status of an interagency strategic plan? And I 
want to commend you folks for using an interagency process in 
your work. Thank you.
    Mr. Handelman. Mr. Chairman, I will start off. I think--
well, let me answer directly. The status of interagency 
planning is that it is intense. I think there is a challenge 
perhaps in how one defines strategic plan. I must say just an 
executive branch manager, I think we need to be left some 
flexibility to how we establish metrics of success and budgets 
and targets for our own programs. Is there a telephone book-
sized product, labeled ``Strategy'' with all of the things that 
one might include some of the things that you have referenced? 
No. Does the Cooperative Threat Reduction Program have a 
telephone book-sized product that sets targets and identifies 
the impediments to achieving our goals? Sure, it does. And so 
does Ms. Harrington, and we see a huge amount of each other, 
often at the Old Executive Office Building, or as Ms. 
Harrington described, in some of our, I will call them, 
``bilateral agency coordination meetings,'' where we are 
trading notes and synchronizing what these plans are.
    I personally reflect on what the state of planning is today 
and what it was when I first got involved in the nuclear 
security business around 2001, and I will tell you, back then 
we tried our best in Washington. What we always knew is that if 
we were working on nuclear security projects or, indeed, any 
kind of weapons of mass destruction nonproliferation project 
overseas, we could always rely on the embassy country teams to 
deconflict if we just missed a beat here in Washington and, for 
example, the State Department and DOD were spending money to 
address the same nuclear security type of threat in a 
particular country. My confidence at the time in the embassy 
country team was much higher than my confidence in the 
interagency process to get it right from the start here in 
Washington at headquarters. Today my confidence is equal, both 
from where we do our original planning and targeting and 
budgeting here in Washington, but it is still great to have the 
safety net of our great State Department colleagues out in the 
field who actually have to work with the implementers, who are 
there to just double-check and make sure that we are not 
double-tapping on a project or that we are not missing 
something.
    Senator Akaka. Any further comment, Ms. Harrington.
    Ms. Harrington. Mr. Chairman, let me add to that. Each one 
of these efforts is unique. There are diplomatic, technical, 
logistical, and financing dimensions for each one of these that 
have to be separately developed, negotiated, concluded. In some 
cases, there are contracts that have to be executed. So there 
is no cookie-cutter approach that we can apply. We have basic 
goals that we want to achieve with each one, but I think it is 
a real demonstration of success of how closely we have worked, 
and how successful, that we have this chart\1\ here, which is 
our set of goals for vulnerable material removals. And all of 
the green is what we have accomplished. The yellow is currently 
in process, and between now and 2013, our goal is to complete 
the white.
---------------------------------------------------------------------------
    \1\ The chart referenced by Ms. Harrington appears in the appendix 
on page 138.
---------------------------------------------------------------------------
    So I think this visually demonstrates that the process that 
we have in place is actually working quite well. Sometimes, 
however, there are things that are extremely disruptive to 
being able to implement even the best plan.
    We found, for example, that in 2011, when we had a whole 
series of continuing resolutions (CRs), we actually could not 
put enough money together to actually place the contracts that 
were needed in order to manufacture the replacement fuel or 
secure logistic support and so forth, and we experienced a fair 
amount of slippage, which we have been making up, but there are 
external factors that play extremely heavily on these kinds of 
operations.
    And so to the extent that we can be precise, we are. To the 
extent that we can predict when a foreign partner's government 
may change very quickly, those are things that we have to 
basically step back from, recalibrate, work with our State and 
Defense colleagues, and then figure out how to go forward most 
effectively.
    Senator Akaka. Well, thank you for your responses.
    Let me ask this question to Ms. Harrington and ask GAO also 
to respond to this. In 2011, GAO reported that the United 
States is not able to account for most U.S. nuclear materials 
sent overseas as part of civilian nuclear cooperation 
agreements. This included significant amounts of weapons-usable 
material. GAO noted that these agreements often do not provide 
U.S. agencies with the right to access nuclear materials in 
order to verify that materials are secure. We rely on other 
countries to safeguard them.
    Do new nuclear cooperation agreements guarantee U.S. 
agencies will have access to United States supplied nuclear 
materials?
    Ms. Harrington. Thank you, Mr. Chairman. This is probably 
going to be an interesting conversation between Mr. Aloise and 
me because, as you probably are aware, DOE, the State 
Department, and NRC had a quite different view from GAO's in 
terms of this report, and I think all three agencies provided 
fairly strong responses to GAO's conclusions.
    We believe that working together with the NRC and the State 
Department and the Defense Threat Reduction Agency (DTRA), that 
our bilateral assessments to visit foreign facilities and 
assess the status of U.S.-obligated materials provides us a 
good basis to keep track of those materials. We do follow the 
IAEA Physical Security Guidelines, and the IAEA also provides 
its own safeguard inspections of facilities. So we, I think, 
feel quite comfortable that the system that is in place 
actually is adequate.
    In terms of accounting, the Nuclear Materials Management 
and Safeguard System serves as our central repository and 
database for our inventories. It has existed since material 
first started being sent outside the United States, and that in 
combination with the IAEA safeguards program give us a sense of 
confidence that we do have a good picture of the status of our 
materials.
    Senator Akaka. Thank you. Mr. Aloise.
    Mr. Aloise. Well, as you might guess, I have a different 
perspective on that. From 1994 to 2010, the United States, the 
interagency teams--made 55 visits overseas to check on the 
physical security of U.S. nuclear material, and about half of 
those visits found that countries did not meet IAEA physical 
security guidelines.
    Much of this information is a black hole. We do not know 
where the material is, how well it is being secured, and we 
have made visits over there, and I visited some of those 
countries myself and saw some situations which urgently needed 
upgrading.
    So we think the status quo in this area is not good enough. 
We think more effort needs to be made to develop an inventory 
of where this material is. I know it is a delicate dance with 
our foreign partners who hold the material. However everybody 
needs to understand that physical security guidelines should be 
followed and our material needs to be protected.
    Senator Akaka. Well, thank you, and let me ask a final 
question to this panel, and particularly to DOE and DOD. Well, 
let me put it this way. This question is for any of you that 
want to respond.
    Many agencies face difficulties recruiting and retaining 
high-skilled employees, particularly in fields requiring 
specialized technical, scientific, language, or other training. 
An increasing number of Federal employees are retiring, further 
complicating this challenge on personnel.
    What actions are you taking to address recruitment and 
retention challenges in your nuclear security workforces? Ms. 
Harrington.
    Ms. Harrington. That, Mr. Chairman, is an excellent 
question and an issue that occupies our minds often. Ensuring 
the future security of the country is as important to us as the 
current security, and making sure that we have the right people 
to step into our shoes when we all retire is essential.
    We approach this in a number of different ways. I left in 
our office a nonproliferation graduate fellow who works with 
us. We usually have 20 or more of them who are recruited every 
year. Young professionals who are interested in following a 
career, who come into our offices, get security clearances, 
work side by side with us, travel with us, and many of them end 
up as part of our nuclear security family, either in the 
Department of Energy, some in the Department of State. I 
already lost one to you this year, Ken, who is now working 
permanently with the Defense Threat Reduction Agency.
    We also have within our laboratories a very good pipeline 
of fellows and young scientists, and, similarly, with our 
research and development office, we have a new university 
laboratory consortium which allows a large group of U.S. 
universities to work directly with Department of Energy 
laboratories and allows our laboratories to work directly with 
university faculties. It is a very exciting program. We think 
it will give us a long pipeline into the future. But we do 
think about this issue a great deal. Not only for us, but also 
for other countries that are suffering through the same kind of 
retirement bubble that we are experiencing in the United 
States. We are not unique in this respect, and we have 
interesting conversations with our Russian colleagues, for 
example, who are looking at similar issues.
    Thank you.
    Senator Akaka. Thank you. Mr. Handelman.
    Mr. Handelman. Mr. Chairman, it is an excellent question. I 
think my response is not going to be completely satisfying 
because I come from a policy organization, so we are not people 
typically who can do mathematics in public. We can think big 
thoughts and spell-check them.
    If it makes you feel any better, I will tell you that every 
time I am with colleagues at NNSA or, even more important, out 
at the laboratories, the issue of recapitalization of our 
physical scientific base is--those discussions are never ended 
without a similar discussion about the recapitalization of the 
intellectual base. So the people who can do math in public, I 
can attest, are thinking about it very carefully.
    I will tell you that in my organization, because of 
Secretary Gates' efficiencies program, right now we are in a 
hiring freeze, but I like to think that we--well, when we are 
not in a hiring freeze, I like to think that we do need good 
policy thinkers to pair up with the technical experts, and for 
whatever it is worth, the people that we have been recruiting, 
who had been applying to our jobs before the hiring freeze was 
imposed, were absolutely stupendous. I mean, I could not 
compete with them.
    I will embarrass a close colleague in my organization, Dr. 
Jason Hamm, who is sitting right behind me, who is a great 
example of a person who is actually a Ph.D. experimental 
physicist, who is in the policy world, and I get to take credit 
for his good work.
    So from a policy perspective, as retirements go forward, I 
am actually pretty confident in DOD that we are able to keep 
that human capital pipeline flowing.
    Senator Akaka. Thank you very much.
    Would you like to make any comments, Mr. Aloise.
    Mr. Aloise. Yes, Mr. Chairman. In a few months, we will 
have a report to you that we are doing at your request looking 
at the challenges NNSA is facing in hiring, in keeping people 
in the areas such as nuclear weapons. People do not graduate 
college as weaponeers. It takes years for them to become smart 
on nuclear weapons. So that report will lay out the challenges 
and what NNSA is doing to address those challenges.
    Senator Akaka. Well, I want to thank you very much. Your 
responses have been valuable, and it will certainly help us in 
our further discussions and trying to deal with the challenges 
that we will be facing on these issues.
    I want to thank you so much for what you are doing, and you 
have been responsive to us, and we are all working together to 
make it better for our country. So thank you very much to the 
first panel.
    Now I would like to call the second panel to the table 
here. [Pause.]
    I want to welcome Mr. Kenneth Luongo, President of the 
Partnership for Global Security, and Dr. Page O. Stoutland, 
Vice President of the Nuclear Materials Security Program at the 
Nuclear Threat Initiative.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses, so I ask you to please rise and raise your 
right hands. Do you solemnly swear that the statement you are 
about to give the Subcommittee is the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Mr. Luongo. I do.
    Mr. Stoutland. I do.
    Senator Akaka. Thank you very much. Let it be noted for the 
record that the witnesses answered in the affirmative.
    Before we start, again, I want to remind you that your full 
statements will be included in the record, and we ask you to 
please limit your oral remarks to 5 minutes.
    Mr. Luongo, will you please proceed with your statement?

 TESTIMONY OF KENNETH N. LUONGO,\1\ PRESIDENT, PARTNERSHIP FOR 
                        GLOBAL SECURITY

    Mr. Luongo. Thank you, Mr. Chairman. Thank you for the 
invitation to testify today, and thank you for holding this 
hearing. I think it is a very important subject. 
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Luongo appears in the appendix on 
page 84.
---------------------------------------------------------------------------
    The Nuclear Security Summit in 2010 was unprecedented, and 
it was a successful event where the participants agreed to a 
communique that highlighted many issues of global importance 
and, in particular, endorsed the President's goal of securing 
all vulnerable nuclear materials in 4 years. As you noted, a 
second summit is in Seoul later this month, and then the next 
one is in the Netherlands.
    I think that the summit process has been important for a 
variety of different reasons, including setting some new 
precedents. One is that the pursuit of improved nuclear 
material security does not need to be universal all the time. 
It can be selectively multilateral, which is essentially what 
the Nuclear Security Summit is. It does not include all 
nations.
    Another important precedent is that it seeks to achieve 
goals within specific time frames, and I think that some of 
that has happened and some of it has not happened, which I will 
talk about a little bit more.
    There are developments that have essentially further 
solidified the current regime, but not allowed new policies and 
strategies to be introduced to supplement today's system to 
address nuclear terrorism. And I think a good precedent is that 
each summit should build on the previous one to introduce some 
new ideas and some new thoughts.
    My expectation for the upcoming Seoul summit is that it 
should build on the foundation of the Washington summit and 
then create an improved governance structure for nuclear 
material security. And it should focus on three things: It 
should be comprehensive; it should help standardize the way we 
do this across borders; and it should be accountable. If this 
policy evolution can be initiated, then I think it will 
significantly strengthen the nuclear security regime in the 
future.
    The current nuclear material security regime is essentially 
a patchwork that is primarily designed and controlled by 
national agencies and actors. It includes very little 
transparency. International obligations are largely voluntary, 
with no uniformity of security regulations or procedures. And 
what is needed is a confidence-building architecture that 
allows for comprehensive and clear but flexible standards.
    You were kind enough to mention my criticism of the budget. 
Thank you. I really think that the budget is a serious problem. 
It has never been commensurate with the President's vision or 
the goals that he set out in the Prague speech, and this year's 
budget in particular I think is very problematic, and both as 
it relates to the Second Line of Defense (SLD) and as it 
relates to the GTRI program.
    As your line of questioning in the first session indicated, 
there is much more that we could do on radiological security, 
and we really should do it. It is very important.
    On the Second Line of Defense program, I would just make 
one comparison. In the United States domestically, in New York 
City in particular, we have installed about 6,000 radiation 
monitors around New York City. Around the rest of the world, we 
have only installed about 2,000 for all of the rest of the 
globe. And yet the program is being cut by a very substantial 
margin this year, and I think it does not make any sense. And I 
think that the justification for that cut has never been made 
clear, and I think it should be.
    The President's goal of securing all vulnerable nuclear 
materials in 4 years, as Gene mentioned, has never been very 
well defined. I think it is a mistake that we in the outside 
world never pushed for a specific definition. The definition 
that we received today, which is that it was the protection of 
high-priority materials as opposed to all vulnerable nuclear 
materials, is not completely consistent with what the President 
said.
    I think that between now and 2020 a bolder agenda should be 
pursued, and I think that part of that bolder agenda should be 
the elevation and prioritization of radiological source 
security. There is a serious problem with radiological 
materials around the world, and one initiative that the 
Congress could enact, should they so decide, is radiological 
zones of security around the world.
    I would just say that another item that would be useful is 
to unify the current regime under a nuclear material security 
framework. There is precedent for it in the environmental area, 
and the Convention on Nuclear Safety also has precedent that 
could be used.
    In general, I would say that the Congress should provide 
leadership on nuclear security by ensuring adequate budgets, by 
authorizing and funding these radiological security zones, by 
supporting a dialog among international regulators and nuclear 
facility security personnel, and then, finally, by encouraging 
the administration to focus on the need to improve nuclear 
security governance and to explore the value of this framework 
agreement that I mentioned. Thank you very much.
    Senator Akaka. Thank you very much, Mr. Luongo.
    Mr. Stoutland, would you please proceed with your 
statement?

   TESTIMONY OF PAGE O. STOUTLAND,\1\ PH.D., VICE PRESIDENT, 
 NUCLEAR MATERIALS SECURITY PROGRAM, NUCLEAR THREAT INITIATIVE

    Mr. Stoutland. Thank you, Chairman Akaka. My name is Page 
Stoutland. I am the Vice President for Nuclear Materials 
Security at the Nuclear Threat Initiative (NTI), a nonpartisan, 
nongovernmental organization founded and co- chaired by former 
Senator Sam Nunn and CNN founder Ted Turner. Over the last 10 
years, we have worked to strengthen material security around 
the world in a range of projects and are trying to catalyze 
governments to do more in this area.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stoutland appears in the appendix 
on page 96.
---------------------------------------------------------------------------
    My remarks today will focus primarily on the urgent need 
for leaders to reach a global consensus on priorities for 
nuclear materials security and on steps the international 
community and individual countries can take.
    Because there is no baseline assessment of nuclear 
materials security conditions around the world, we recently 
developed a first-of-its-kind Nuclear Materials Security Index 
that scores 32 countries that have what we call ``weapons-
usable nuclear materials'' on their nuclear materials security 
conditions, and also an additional 144 countries that have 
small amounts or none of these materials but could be used as 
safe havens or staging grounds.
    Our hope is that this index will serve as a much-needed 
basis for a dialog on security priorities and can be used as a 
baseline against which progress can be measured.
    In developing the index, we found that governments 
generally are more aware of the threat posed by nuclear 
materials and the urgent need to strengthen security and also 
are more engaged in this effort. That was the good news, and it 
was due, at least in part, to the 2010 summit.
    We also, however, confirmed that there is currently no 
global consensus on what steps matter most to achieve security. 
There is no agreed international system or globally accepted 
practices for regulating the production of, use of, and 
security requirements for weapons-usable nuclear materials. 
And, further, there is deliberate lack of transparency about 
security measures that makes it impossible to hold States 
accountable for their security responsibilities.
    Briefly, we also believe that the nuclear terrorism threat 
remains high. There are currently thousands of tons of nuclear 
materials in the world, and many of those are not well secured. 
That is why all countries with weapons-usable material have a 
responsibility to secure them and to make sure that their 
materials are not at risk of theft or diversion, and that is 
why we, NTI, working with the Economist Intelligence Unit, 
undertook the development of this index. Detailed information 
is available at www.ntiindex.org.
    Let me make one important point. The index is not merely a 
rating system. It is not meant to be used to congratulate some 
and chastise others. Rather, it is designed to be used as a 
resource and a tool for all countries and international 
organizations as we make the world a safer place.
    Let me briefly summarize some of our key recommendations 
that get to your question as to are we effectively securing 
nuclear materials around the world.
    An overarching recommendation is that all States must work 
together to build a system for tracking, protecting, and 
managing nuclear materials in a way that builds confidence that 
each State is fulfilling its obligation.
    Specifically, we recommend establishing an international 
dialog on the priorities for materials security. Such a global 
consensus does not yet exist, and the Nuclear Security Summit 
or some other process would be a good place to start to build a 
common framework for action.
    Second, we must benchmark progress and hold States 
accountable for security. Over the past 20 years, there has 
been progress on securing and eliminating materials, but we 
must track progress around the globe over time, and it is 
critical that governments provide declarations of their 
weapons-usable nuclear materials as well as the current status 
of their nuclear materials security conditions.
    Third, it is important to build appropriate transparency to 
increase international confidence. We understand, of course, 
that many details about security for sites where materials are 
stored are--and should be--protected. But other information, 
such as the general approaches to materials security and broad 
descriptions of materials security regulations and holdings, 
could be made public and could greatly enhance international 
confidence in a country's security conditions.
    Individually, countries can do more as well. The United 
States ranked 13th among countries with weapons-usable nuclear 
materials in our index. That rating was affected, in part, by 
the quantity of materials and number of sites where they are 
stored. If the quantities and sites were not included, the 
United States would rank second, indicating high scores in 
other areas. But in the future, the United States could improve 
its leadership and its ranking by ratifying the relevant 
international agreements that are critical in this area.
    We are encouraged by reactions to our new index, by 
progress on the President's goal of eliminating all materials, 
and by ongoing attention. But today it is imperative that the 
Congress continue to support these critical programs and 
continue to support United States leadership in this area. We 
strongly urge the Senate to complete ratification steps on the 
2005 Amendment to the Convention on the Physical Protection of 
Nuclear Material (CPPNM) and the International Convention on 
the Suppression of Acts of Nuclear Terrorism (ICSANT). Doing so 
would set a powerful example for the world and reinforce the 
United States' leadership in this area.
    Again, great progress has been made on nuclear security. We 
welcome the United States leadership provided by the summit, 
and we are optimistic about continued progress. The index can 
help inform that process and serve as a valuable tool to help 
all of us better secure and protect some of the world's 
deadliest materials.
    I would like to take the opportunity again to thank you and 
this Subcommittee for this work, and I am happy to answer any 
questions you might have.
    Senator Akaka. Thank you very much, Dr. Stoutland.
    Mr. Luongo, your testimony recommends that we devote 
greater attention and resources to securing high-risk 
radiological materials worldwide, and I agree with you on that. 
You provide recommendations for expanding NNSA's radiological 
security work both domestically and abroad.
    Please elaborate on these recommendations, as well as any 
observations you may have regarding GAO's findings on the 
serious vulnerabilities at domestic hospitals.
    Mr. Luongo. Well, I have two reactions, Mr. Chairman. The 
first is that I think NNSA is doing a great job on radiological 
with the money that they have, but the money is not adequate 
for the mission. And I think the second reaction I have is that 
what GAO found is a function of the fact that there is not 
enough of an effort in hospitals to secure radiological 
materials.
    I was struck--there is a study from the Congressional 
Research Service (CRS) on radiological terrorism, and I have 
been working in this field for a long time, but I have to tell 
you, the person that wrote that report came to something that I 
was at and held up a vial of Cesium-137 and said this is what 
it would take to have a radiological incident that had the 
scope of radioactivity dispersal that he had in his report, 
which would have gone from the White House up beyond Capitol 
Hill, and that capsule was as big as my thumb.
    It is a very serious problem because we have hundreds of 
thousands of these sources around the world. The most high 
intensity of them are less than the average source, and most of 
them are found in hospitals and food irradiation facilities and 
things like that.
    So I think an initiative that--as a high priority for the 
United States--is to secure all high-intensity radiological 
materials in hospitals and other public locations would be a 
great initiative between now and the next summit in 2014 in the 
Netherlands. And I think it is something that the United States 
could spearhead, and I do not think it is going to cost that 
much. I think to do the job in the United States alone would be 
something less than $200 million. But I think it is an 
important initiative, and it has been undervalued. The 
President never mentioned it in Prague, but I do think it is 
something--now that the 4-year goal is coming to an end, it is 
something that we need over the next 2 years or next 4 years a 
much more intense effort on this issue.
    Senator Akaka. Thank you very much for that response.
    Dr. Page Stoutland, I applaud NTI's useful Nuclear 
Materials Security Index. One factor you analyzed was the level 
of political stability in each country with weapons-usable 
nuclear materials. As the recent unrest in the Middle East 
makes clear, this can change rapidly.
    How does political instability undermine nuclear materials 
security? And how can we best prepare for it?
    Mr. Stoutland. Thank you very much for that very important 
and interesting question. When we created the index, we tried 
to create a very holistic framework, if you will, that included 
the full range of things that we thought could affect a 
country's materials security conditions. And as you 
highlighted, it included political stability; it also included 
levels of corruption.
    And as challenging as those things are to evaluate--and I 
should point out that we depended on the Economist Intelligence 
Unit, which is part of the Economist Group and has a long 
history of evaluating these things--we thought it was important 
to couple the conversation of materials security to political 
stability, because I think as we have seen just over the last 
few years, both in Libya and the Middle East, and even in North 
Korea where there has been a recent change, those changes 
introduce a whole set of uncertainties that are very 
unpredictable; and yet they must be considered as we think 
about securing materials in each of these countries.
    So you then ask the question, well, what can we do about 
that beforehand to better deal with it given the potential 
uncertainties and yet the potential seriousness of this. I 
think there are several things that can be done. Probably the 
most important would be to remove and eliminate materials from 
as many countries as possible so that as we saw in Libya, the 
situation was very different since the materials had been 
removed beforehand. And so the potential for political 
stability I think should motivate us to do even more in that 
regard.
    Second, I think we should make sure that the materials are 
as secure as possible, and so for countries where they have 
either high levels of corruption or political instability, or 
in many cases both, those countries, I think, need to go the 
extra mile, so to speak, to show the international community 
that their materials are under very effective control and would 
remain so, even in changes of government or other dangerous 
situations.
    Senator Akaka. Dr. Stoutland, your testimony states that to 
effectively track, protect, and manage nuclear materials, the 
IAEA would need to be significantly strengthened or a new 
international entity created. Your testimony provides specific 
recommendations for desirable outcomes, but does not address 
how to strengthen the IAEA itself.
    What recommendations do you have for building the IAEA's 
capacity to achieve these goals?
    Mr. Stoutland. Thank you for your question. This is 
actually one of the areas where we have received many questions 
after the index has come out, and, in fact, there is even a 
short section in the index that talks specifically to the role 
of the IAEA, because what we have found is that many people who 
are interested in this area do not understand that the role of 
the IAEA is currently restricted to civilian nuclear materials. 
And, of course, the vast quantity of nuclear materials are in 
nuclear weapons programs around the world. And so the mandate 
of the IAEA would have to be dramatically expanded to include 
military materials to accomplish such a thing, and obviously, 
that is something that would be very difficult to do and take a 
very long period of time.
    Second, there is just the resource issue. The IAEA is 
currently underresourced to do many of the jobs that it has 
been asked to do, in fact, and so that is something else that 
would have to be addressed.
    So in the meantime, we have proposed that it is critical 
that an international discussion be initiated, first of all, on 
what the priorities are, and our index has offered a framework 
for discussion that we can use to start to consider in a very 
specific way what the priorities are. And as we do that, I 
think we then have to consider what such a system might look 
like and what its governance might be. But those things, I 
think, are some time in the future as we start to sort this 
out.
    Senator Akaka. Well, let me ask Mr. Luongo the same 
questions, what recommendations you may have for building the 
IAEA's capacity to achieve these goals.
    Mr. Luongo. Yes, Mr. Chairman, I would say that, first and 
foremost, the IAEA after September 11, 2001 created an Office 
of Nuclear Security. It is under Nuclear Safety and Nuclear 
Security, and the problem with that office is not that it is 
not good. It is that it is underresourced significantly, and 
there is a challenge in the IAEA in balancing how different 
parts of their mission get money. So most of the money that 
goes to the Nuclear Security Office comes from voluntary 
contributions from individual countries. I think their budget 
is somewhere around $25 or $30 million a year. I think they 
could do more, provide more assistance to countries, if they 
had more money and more specialists that could go out and 
evaluate the security in individual countries. That is one 
specific thing that I think would be very helpful.
    Reforming the IAEA so that it has a mandate that is greater 
than what it is now or that is more mandatory than what it does 
now I think is going to be extremely difficult because in 
nuclear security, what it does is it makes recommendations, and 
it will do assessments, but it cannot enforce them. And the 
issue, I think, that Page mentioned and others in the first 
panel mentioned is that we do not have uniformity of 
implementation of the security recommendations. The 
recommendations are all very good, but we do not know how they 
are implemented in a lot of countries, and there is no 
requirement that they be implemented uniformly.
    So I think trying to get a uniform baseline would be 
extremely useful, and that is something that the IAEA could 
contribute to. But the enforcement and the transparency of how 
the implementation occurs is a key issue, and I think that is 
not something that the membership in the IAEA would ever allow 
in the short term, but it is a long-term goal.
    Senator Akaka. Thank you very much for that response.
    Dr. Stoutland, as you know, Iran, Pakistan, and North Korea 
received the lowest scores in your security index. Please 
discuss why they received such low scores and to what extent 
their lack of transparency about their nuclear materials 
contributed.
    Mr. Stoutland. Yes, thank you for your question. I think, 
first, one of the key messages coming out of our index is that, 
independent of where countries rank, there is more that all of 
us can do to improve our security conditions. That said, I 
think the countries you mentioned have a lot of room for 
improvement, so to speak. We have found that some of these 
countries do not fully participate in all of the international 
legal arrangements. Many of these countries have very 
challenging societal factors, be they political stability or 
corruption. Many of them have capacity issues just in terms of 
an ability to implement the guidelines that may have been 
promulgated by the IAEA as an example.
    And so these countries have a lot of challenges in front of 
them, and I think you have mentioned the transparency issue. 
One of the key things in our index which differentiates it from 
some other projects is that we included the role of 
transparency because we thought it was critical that not only 
did countries have good materials security conditions but, in 
addition, that they can assure others that they have good 
security conditions. And so that issue featured prominently in 
several countries, and I think there are specific things that 
those countries can do.
    Some have commented in reviewing our index, ``Isn't it at 
odds with security to have too much transparency?'' And we are 
very clear to say that we are not asking for transparency on 
the specific security measures that might be in place at a 
site. Those, of course, should be appropriately protected. 
Rather, we are asking for some fairly general things related to 
having a country have its regulations be public, by making 
public declarations about materials quantities and overall 
security practices. That could go a long ways to assuring the 
international community that they, in fact, have their material 
security under good control.
    Senator Akaka. Thank you.
    Mr. Luongo, you support GAO's recommendation to compile an 
inventory of U.S. nuclear materials overseas, and you heard the 
discussion during the first panel of that issue. Would you like 
to comment on the issue and the agency witnesses' testimony?
    Mr. Luongo. Yes, Mr. Chairman. On the one hand, I have a 
certain amount of sympathy for the NNSA and other agencies that 
have to go out and try to verify where this United States-
origin material is because a lot of it was delivered years and 
years and years ago, and the level of scrutiny was not as 
intense as it is today.
    That being said, I think that getting the most accurate 
record of where nuclear material is and who owns it is 
extremely important, and there is this whole new field of 
science called ``forensics,'' so if there is a nuclear 
incident, you can identify what country that material came 
from.
    I would hate to see United States-origin material used in a 
nuclear terrorist incident, and I think that stronger efforts 
should be made to try and identify where this material is.
    Senator Akaka. Thank you.
    To both of you, it took over a decade to publish revised 
IAEA recommendations for the physical protection of nuclear 
materials and facilities. Achieving international consensus 
often takes quite some time, as you know.
    What more can be done to make sure we have international 
nuclear security mechanisms that respond quickly enough to 
evolving security needs? Mr. Luongo.
    Mr. Luongo. Yes, thank you, Mr. Chairman. I think the 
challenge that we have in the international community is that 
when you are seeking unanimity in support of something, you end 
up with the lowest common denominator because it is always 
watered down by countries that are least interested in making 
progress on the issue.
    So I think in a way the Nuclear Security Summit process, 
even though it has not tackled the really difficult issues that 
we are talking about today, has created this precedent for 
selective multilateralism where I think leaders could emerge 
and put in place, agree among themselves to be more 
transparent, to agree to a common standard for nuclear 
materials security, to submit their materials to peer review 
with confidentiality.
    I think leadership among some key nations--and those 
nations I consider to be the United States, South Korea, Japan, 
and others--would be an extremely positive example that others 
could follow. The example that we have in the environmental 
area for fluorocarbons, for example, is that not all countries 
agreed on protecting the ozone layer at the beginning, but 
ultimately many more came on board after the initiative was 
begun and the agreement was put in place.
    So I think we need to start with leaders, and then I think 
we will gather followers.
    Senator Akaka. Thank you.
    Mr. Stoutland. If I could just make a quick comment and 
largely second what Kenneth said, with perhaps an anecdote. As 
we finished the index, we had many people come to us and say, 
well, why didn't the IAEA or some other international 
organization do such a thing, because it is in many ways 
obvious that we want some sort of framework and be able to 
track progress. And the answer we received was that it would be 
either impossible or it would take a very long period of time 
for an international organization that operates by consensus to 
do something that in principle is actually quite 
straightforward.
    So we went ahead and did it. As we did it, we tried to--a 
key part of our project was to have a fairly small 
international panel so that at least we achieved some level of 
international consensus on the framework and then, of course, 
offered it for broader comment. But I think the notion of 
putting forward something that is a nucleus around which people 
can gather and start to achieve some consensus and hopefully 
some momentum is a good one. I think the summit is a good 
example of that, and there are others where we can start to 
build consensus perhaps by starting with small groups.
    Senator Akaka. Thank you very much. I would say that would 
be my last question to you, and I want to thank you so much. 
Your responses have been valuable, and it will help us move 
forward with the security initiatives that we certainly want to 
strengthen, not only in our country but abroad as well. And you 
have been helpful in doing that, so I want to thank you so much 
for being part of this hearing today.
    The President's 4-year effort and the upcoming Nuclear 
Security Summit in Seoul have put a much-needed international 
spotlight on nuclear materials security. This renewed focus has 
led to significant achievements in securing nuclear materials 
abroad. However, many challenges remain, and our Nation is 
alarmingly vulnerable. GAO's testimony today regarding 
unsecured radiological materials in hospitals and other medical 
facilities nationwide should serve as a wakeup call to these 
facilities as well as to our Federal agencies and Federal 
regulators.
    I look forward to working with the Administration and my 
Senate colleagues in continuing the critical effort to promote 
nuclear and radiological materials security worldwide.
    I will keep the hearing record open for 2 weeks for 
additional statements or questions other members may have.
    Again, thank you for your responses here and for being part 
of this. This hearing is adjourned.
    [Whereupon, at 4:30 p.m., the Subcommittee was adjourned.]





                            A P P E N D I X

                              ----------                              



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
